                          UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





            Report of Inspection


    The International 

 Broadcasting Bureau’s

Ofﬁce of Engineering and 

   Technical Services

Report Number ISP-IB-07-03, October 2006




                          IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




                           UNCLASSIFIED

                                        TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

      Engineering Technical Directorate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

      Concerns Raised Over New Video News Production System . . . . . . . . . . . 20

OPERATIONS DIRECTORATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

     Spectrum Management Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

     Network Support Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

INFORMATION TECHNOLOGY DIRECTORATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

     The Information Technology Directorate’s Strategic Planning. . . . . . . . . . . 31

ENGINEERING RESOURCE DIRECTORATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

     Mission and Functions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 

     Stafﬁng and Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37 

HUMAN RESOURCES MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

                                         UNCLASSIFIED





                                     KEY JUDGMENTS


• 	 The Ofﬁce of Engineering and Technical Services (IBB/E) in the Broadcast­
    ing Board of Governors’ (BBG) International Broadcasting Bureau (IBB) is a
    productive organization. Although it is no longer the technological leader it
    was in the heyday of shortwave, IBB/E has an enviable reputation for respon­
    siveness and accomplishment. A number of the issues identiﬁed in this report
    are to some degree beyond IBB/E’s control.
• 	 IBB/E should communicate more effectively to internal and external audienc­
    es, involve its highly intelligent employees in planning for the future, and value
    the management and leadership skills among its supervisors. Plans and strate­
    gies should be followed and benchmarked.
• 	 IBB/E lags behind many competitors in its use of such media as the Internet
    and television. IBB/E needs the resources and mandate to help the agency
    catch up.
• 	 Although IBB/E welcomes innovation, it has no earnest organization-wide ef­
    fort to seek technological solutions and conduct research and development.
• 	 Too often IBB/E’s talented engineers are given solutions to implement, instead
    of being challenged with problems to solve. The organization is not getting as
    much as it should from its capable staff.
• 	 IBB/E’s main mission is signal delivery. However, IBB/E’s monitoring and
    evaluating of this differs, depending on whether the medium is the Internet,
    television, or shortwave or frequency modulated (FM) radio.
• 	 Complex, technical environments, such as IBB/E’s Network Control Center
    (NCC) and Information Technology (IT) directorate, do not have standard
    protocols and written standard operating procedures (SOP) to guide employ­
    ees. Critical infrastructure also needs capital investment.
• 	 After years of budget cuts, and with retirements looming, workforce planning
    now needs to be a priority. The use of frequent but unpredictable waivers of
    IBB’s seemingly endless hiring freeze has sown confusion at IBB/E about the
    stafﬁng plan. Staff training and the award program need BBG management’s
    attention.
• 	 IBB/E spends a lot of money, and its contracts and procurement are well
    managed. However, its training and guidelines for its procurement ofﬁcials are
    insufﬁcient.


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   1 .


                                         UNCLASSIFIED
                                   UNCLASSIFIED



         The inspection took place in Washington, DC, between April 17 and June 9,
      2006.




2 .             OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                   UNCLASSIFIED
                                         UNCLASSIFIED





                                            CONTEXT


     IBB/E delivers programs produced by Voice of America (VOA) and by quasi-in­
dependent grantee broadcasters to audiences in target areas around the world. This
global transmission network employs 622 people and has an annual budget of $158.9
million. It has a goal of keeping America “on the air” using radio, television, and
the Internet. The number of employees at IBB/E’s Washington, DC, headquarters
is 172, and the number of American nationals employed by IBB/E at transmitting
stations is 96.

    Besides running a 24-hour, seven-day-week network control operation, IBB/E
manages capital projects such as building new antennas, provides computer network
services, negotiates frequency allocations, designs and procures high-technology
audio-video solutions for the broadcasters, and supports the Department of State’s
(Department) American Embassy Television Network.

    A 1994 Act of Congress consolidated all U.S. government-funded, civilian inter­
national broadcasting under the BBG1 with the aim of reducing post-Cold War bud­
gets and creating efﬁciencies. In 1999, the BBG was made an independent, executive
branch agency2 responsible for VOA, Ofﬁce of Cuba Broadcasting (encompassing
Radio and TV Martí), and WORLDNET television. BBG is also responsible for
the so-called grantee organizations, which today include Radio Free Europe/Radio
Liberty, Radio Free Asia, Middle East Broadcasting Network (Radio Sawa and Al­
hurra television), and Radio Farda (to Iran). The 1994 Act consolidated all transmis­
sion support activities under IBB/E, which must provide transmissions that reach a
signiﬁcant listening audience, offer a surge capacity in time of crisis, and constantly
seek quality, cost, and operational efﬁciencies.3

    The best programming in the world is not worth much if no one can hear it.
For BBG, signal delivery is a technically more demanding task than that facing any
American commercial broadcaster. The interplay of geographical, technical, and
political factors within a range of technologies from short wave to television creates
a challenge of unique dimensions.


1 The U.S. International Broadcasting Act of 1994 (P.L. 103-236)
2 The Foreign Affairs Reform and Restructuring Act of 1998 (P.L. 105-277)
3 The Ofﬁce of Cuba Broadcasting has its own engineering capabilities.



OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   3 .


                                         UNCLASSIFIED
                                    UNCLASSIFIED



          The structure of America’s civilian international broadcasting organization
      challenges IBB/E. Brieﬂy, nine Presidential appointees, meeting once monthly as a
      committee, act as both the board of the agency (BBG) and the de facto executive of
      a government agency. In practice, IBB answers to the BBG board of directors, sup­
      plies administrative and engineering support to VOA, and passes U.S. government
      funding through to Ofﬁce of Cuba Broadcasting and the private grantee broadcast­
      ers. Each of the grantee broadcasters has its unique congressional mandate, political
      base, and Presidentially appointed director. There is also considerable competition
      for resources and audience. The competition occurs among the broadcasters, be­
      tween content producers and IBB/E, and among alternative delivery systems.

          IBB/E also faces challenges in overcoming geographical, political, and techni­
      cal obstacles to getting signals to intended audiences. It must do so in a time when
      technology and the information culture are changing rapidly around the world.
      Podcasts, video streaming, cell phone text messaging, satellite digital radio, and other
      developments are rapidly supplementing and displacing IBB’s mainstay medium of
      traditional shortwave radio, especially for younger urban audiences.

          At the same time, there is a debate about the U.S. government’s international
      broadcasting. The debate involves the merits of program formats, international
      versus surrogate broadcasting, whether to target elite or mass audiences, the value of
      shortwave transmissions, how to reach hostile or poorly informed audiences in the
      Middle East, and every other aspect of a broadcast engineer’s environment. Fur­
      thermore, directed budget reductions from outside the agency have often prevented
      IBB/E’s engineers from seeking more efﬁcient, more logical solutions.

          IBB/E also sometimes runs into policy hurdles. For example, it has had a major
      success in getting Radio Sawa programs on local FM stations in the West Bank and
      Gaza (Palestinian Authority-controlled areas), and listenership among Palestinians
      has increased. Nevertheless, the lawfulness of the contracts for these broadcasts
      has been called into question by the Treasury Department’s Ofﬁce of Foreign As­
      sets Control as a result of the U.S. government’s decision to cease funds transfers to
      entities controlled by the Hamas government. In other important target areas, Egypt
      and Saudi Arabia, governmental licensing authorities have steadfastly refused Ameri­
      can diplomatic requests for the needed local broadcast licenses.




4 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                    UNCLASSIFIED
                                         UNCLASSIFIED





                               EXECUTIVE DIRECTION


   About two weeks into this inspection, BBG announced that IBB/E’s director
would be promoted to deputy director of all IBB. One of the BBG’s governors said,
“We hope he can do for the entire agency what he has done for Engineering.”

    A senior Foreign Service ofﬁcer with more than 35 years of broadcast and tele­
communications engineering experience, IBB/E’s departing director had served in
that role for six years and won a reputation for leadership, quick action on priority
projects, and successfully shifting gears as his organization has moved toward televi­
sion, FM broadcasting, and Internet technologies.

    IBB/E has four units, or directorates, that jointly work to manage and maintain
the global network of transmission facilities and satellites, investigate new technolo­
gies and oversee major projects worldwide, and fulﬁll BBG’s numerous information
technology (IT) requirements. Its directorates are:
    •    Engineering
          	          Operations, which supports transmitter stations, manages fre-
         quencies and schedules, and operates the 24-hour NCC.
    •    Engineering
          	           Technical, which does engineering planning, technical de-
         velopment, major project implementation, and system integration for the
         global transmission network and the TV-radio satellite distribution system
         including earth terminals. The directorate also manages the Digital Broad-
         casting Project, Internet, and other digital applications.
    •    Information
          	           Technology, which manages all the internal and external com-
         puter networks and the systems connected to them. The directorate also
         tests and implements new software and hardware.
    •    Engineering
           	           Resource, which coordinates the IBB/E budget, conducts
         liaison with IBB ofﬁces such as personnel and procurement, and helps with
         international negotiations for broadcast facilities.
    IBB/E is performing and accomplishing its core mission. It is also agile, mobile,
and global. Although IBB/E faces difﬁculties, many of them are not of its making.
It appears, however, that IBB/E’s managers can improve performance if they are
able to achieve several objectives. These include:
         • inducing more internal and external communication,
         • making work more predictable by adhering to plans where possible,


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   5 .


                                         UNCLASSIFIED
                                    UNCLASSIFIED



              • encouraging management and leadership skills, and
              • focusing greater attention on areas where BBG lags, such as Inter-
                net technologies and television.

          OIG made recommendations with these needs in mind.

      Communication

          IBB/E has earned the conﬁdence of the political-appointee Governors of the
      BBG and of the presidents of the grantee broadcasters, who are also political ap­
      pointees. The organization has focused on the highest BBG priorities - getting FM
      transmitters installed for Radio Sawa, increasing television capability, and building an
      Internet structure capable of both Web presence and information delivery. IBB/E
      has a well-earned reputation for agility and responsiveness, but also is known for less
      predictability. Confusion about its goals and tactics could be countered by better
      internal and external communication.

          Internal Communication -- IBB/E staff members told OIG of their uncertainty
      about the organization’s direction and - after repeated budget cuts - even worried
      about IBB/E’s long-term viability. A number of employees claimed that informa­
      tion does not ﬂow well horizontally or vertically within the organization, that su­
      pervisors are often unable to explain decisions, and that the absence of plans and
      strategies inevitably results in some wasted effort and expenditures.

           Several factors may contribute to poor communication within IBB/E. Com­
      pared with many similar governmental units, IBB/E has few internal mechanisms
      for sharing information, debating strategies, hearing suggestions, and communicat­
      ing with and among employees. Although the director holds twice-weekly meetings
      at which information is shared with his four immediate subordinates and the Chief
      Information Ofﬁcer (CIO), the practice is repeated only sporadically elsewhere in
      IBB/E. No minutes or notes of such meetings are shared with IBB/E staff. Town-
      hall and offsite meetings are rare, as are inclusive strategy discussions. There is no
      regular IBB/E staff newsletter, and the organization’s Intranet web site is not ac­
      tively maintained or designed for this purpose. IBB/E’s only systematic means of
      communication is a weekly report that is distributed to all staff.

         Some of IBB/E’s middle managers seem not to believe that communication is
      important or that their subordinates care what is going on in the organization as a
      whole. “Most of my guys are working on their own thing, and they don’t care about
      what’s going on down the hall,” said one manager.



6 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                    UNCLASSIFIED
                                         UNCLASSIFIED



    Several factors contribute to staff uncertainty about IBB/E’s goals and tactics:
First, IBB/E lives on the fault line of U.S. foreign policy and domestic politics.
Foreign developments (coups, military action, policy decisions, natural disasters, and
Presidential determinations) affect IBB/E’s plans abruptly.

    Secondly, IBB/E’s work is inherently intolerant of uncertainty. Engineers live in
a binary world: a transmitter is on or off; a new antenna array is funded or not.

    Thirdly, some parts of IBB/E - especially those working on Internet technolo­
gies - are in ﬁelds where change and innovation occur every day. In some target
audience areas, the new technology adaptation rate is faster than in North America.

    External Communication - IBB/E’s external communication can also be improved.
Interviews with grantee broadcasters served by IBB/E revealed that they fully
respect IBB/E’s talents and capabilities, but are considerably mystiﬁed about how
IBB/E efforts are prioritized. “It’s like a black box over there (at IBB/E). Some­
times wonderful things come out of it, but you never know what’s next,” said one
person whose broadcasts depend on IBB/E.

    Many outsiders interviewed were quick to praise IBB/E’s quick action on high
priorities such as setting up more than a dozen FM transmitters in Afghanistan and
Iraq. Most technical directors at grantee broadcasters also said they have a distant, if
cordial, relationship with IBB/E. The pattern of contacts OIG identiﬁed does not
lend itself to IBB/E’s congressional mandate to seek economies and “ensure highest
quality and cost-effective delivery [of] services.”

    Meetings of grantee and IBB/E senior ofﬁcials are rare. Although IBB’s
monthly report to grantees includes a report from IBB/E, most ofﬁcials at grantee
broadcasters could not recall seeing any reports on IBB/E activities. Grantees have
few face-to-face contacts with IBB/E, although grantee broadcasters report satis­
factory communication at the working level on routine matters such as frequency
changes and transponder outages. This situation is reciprocal. IBB/E managers talk
as though the VOA language services are their only customers and rarely mention or
include grantee broadcasters in their discussions.

     IBB/E can achieve more and deliver more customer satisfaction by engaging in
a determined effort to develop a communicating corporate culture. Steps toward
this goal might include weekly ofﬁce staff meetings, circulating informal minutes
or notes of senior staff meetings, occasional townhall meetings, offsite meetings,
brown bag luncheons, and broadly inclusive strategy discussions. IBB/E should also
consider establishing a regular staff newsletter and a much-improved intranet web
site. IBB managers agree that there is a need for a new internal web site and have

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   7 .


                                         UNCLASSIFIED
                                    UNCLASSIFIED




      already begun the acquisition process. On the external side, an effort by IBB/E to
      meet periodically at senior levels with grantee broadcasters and (at least) with ofﬁcials
      of the important VOA language services would increase these ofﬁcials’ appreciation
      of IBB/E’s capabilities, minimize misunderstandings, and stimulate collaboration. In
      general, IBB/E should seek an open environment that encourages input from all lev­
      els, better understanding of long-term and intermediate goals, and greater customer
      satisfaction.

         Recommendation 1: The International Broadcasting Bureau’s Ofﬁce of Engi­
         neering and Technical Services should develop and implement a written plan of
         actions to emphasize the internal and external communication of ideas, goals,
         and current tasks. (Action: IBB/E)



      Planning


          IBB/E receives remarkable praise for agility and responsiveness. This agility ap­
      pears to come at the price of a clear sense of direction. This does not have to be.

          A number of IBB/E employees said that - aside from urgent priorities - they
      are uncertain about the IBB/E core mission, where the organization is going next,
      what its basic priorities are, and which activities are more important than others. A
      number of employees sampled by OIG could not state IBB/E’s mission statement
      and said they had never seen a mission statement nor knew where to look for it.
      Employees seem clear about their own jobs and ofﬁces, but are less able to ﬁt those
      concepts into a larger vision. IBB/E managers pointed out that a mission statement
      that serves as a reference point in each employee’s performance standards is posted
      in the director’s ofﬁce and on a hallway bulletin board.

          Senior IBB/E managers, of course, have a vision for BBG’s future and can enu­
      merate organizational priorities and ﬁt the pieces together. The absence of a clear
      understanding of strategic goals and plans at all levels of the organization, how­
      ever, affects efﬁciency. In addition, some employees are reluctant to initiate action
      without extensive checking with superiors. Other employees regret the wasted time
      and resources they have spent on activities that were (suddenly or to their surprise)
      canceled or redirected.

           As noted, IBB/E’s work is often at the cutting edge of political decisions and
      newsmaking events. No one could have foreseen the sudden need for a transmit­
      ter ring around Serbia or for a crash project to establish a Tajik transmitter to send


8 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                    UNCLASSIFIED
                                         UNCLASSIFIED




signals to Pakistan. Technological change also affects IBB/E’s work. No one - even
those who work in technology - could have forecast the sudden popularity of short
message service (SMS) text messaging in China.

     The overall BBG strategic plan, Marrying the Mission to the Market, 2002-2007
(available on its web site), provides the framework and guidance for the more de­
tailed annual BBG Engineering and Technical Services FY 2007 Performance Plan, which is
updated annually as part of IBB/E’s budget submission. The most recent IBB/E
performance plan received an exceptionally high score from the Ofﬁce of Manage­
ment and Budget.

    The performance plan does a commendable job of turning the BBG’s strategy
statements (e.g., “a broadcasting architecture for the Twenty-ﬁrst Century”) into ac­
tionable steps. For example, IBB/E’s latest version gets into detailed commitments
such as “installation of anti-jamming antenna capabilities at Tinian” and “install a
5-kilowatt very high frequency television transmitter in Mosul.” Such pledges are
speciﬁc and measurable. IBB/E has proposed speciﬁc metrics for judging progress
on many of its implementation strategies.

    IBB/E’s performance plan, however, is more vague about how IBB/E will
maintain and expand the BBG’s Internet presence, one of the most important and
unique activities in BBG. The plan calls for IBB/E to do “continued” work on font
development, “expanding” mobile content distribution, and “maintain and expand”
capability for streaming radio content. None of these efforts is quantiﬁable, accord­
ing to the plan. Indeed, performance measurement of all of IBB/E’s Internet-re­
lated goals relies on an advisory group that should have ﬁnished their work in the
summer of 2005.

    One strategic goal is to “employ modern communications techniques and tech­
nologies.” The performance plan, however, envisages just four ways to do this:
combating jamming with more transmitters, increasing mass e-mailing, improving
FM sound quality to take advantage of digital radio receivers, and experimenting
with SMS messages on cell phones. Only the ﬁrst three of these have performance
measures. The performance plan, however, does not include all of the techniques
IBB/E plans to use and was acknowledged by one IBB/E ofﬁcial as “not a compre­
hensive plan of what we’re doing.” IBB/E should have a more focused and more
aggressive approach to seeking technological solutions and innovations that will
deliver signals to target audiences.

    Despite the intent of Congress, IBB/E does not serve VOA and grantee broad­
casters equally. IBB/E’s managers say it was not the intent of Congress in the 1994
Act that all IBB/E clients are served equally or that IBB/E provide all engineering

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   9 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       services to the grantees. Some grantees own or lease their own transmitters - some
       run their own Internet services - others venture into aspects of television without
       IBB/E’s support and expertise. In addition, some IBB/E clients do better than
       others. For instance, Radio Free Europe/Radio Liberty’s web presence is light years
       ahead of that of the VOA. Some technologies used by grantee broadcasters today,
       especially those related to the Internet, hardly existed when the law was written. The
       inequality in clients’ service levels is taken for granted by the clients. Nevertheless,
       economies could be realized if there was a strong push by the board of directors to
       rationalize service and compensate IBB/E for supporting all BBG broadcasters at an
       equally high level.

            These points aside, IBB/E is to be commended for having developed a reason­
       ably detailed and measurable performance plan to implement the board of direc­
       tors’ strategic goals. It appears that the lack of clarity among IBB/E staff about the
       organization’s stability and objectives could be addressed, in part, if management
       were to make a greater effort to involve staff in the conceptualization and assess­
       ment of the performance plan. OIG informally recommended that IBB/E convene
       a large working group or town meeting to discuss strategy and performance goals
       before IBB/E’s plan is next updated. Additionally, it would be healthy periodically,
       perhaps on a trimester basis, for IBB/E to review with all staff the progress it has
       made on goals.

       Corporate Culture of Good Management

           During the inspection, OIG encountered many instances of supervisors who
       are not using good management and leadership skills. There appears to be a pat­
       tern under which some IBB/E managers rose to mid-level supervisory positions on
       the basis of evident engineering or technical competence. Supervisory skills were
       required of these managers but were not previously emphasized for promotion. Few
       of IBB/E’s upper management vacancies have been ﬁlled from outside the organiza­
       tion, in part because several years of downsizing created pressures to ﬁnd places for
       displaced, long-serving IBB/E veterans.

           The IBB/E workforce is educated, skilled, and for the most part well motivated.
       A large percentage of the workforce has university or advanced degrees. Many
       employees are self-starters who need information and feedback more than speciﬁc
       direction, but IBB/E’s management culture does not always foster giving these
       employees information and feedback. The preceding recommendation to improve
       internal communication will address this.




10 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED



    The just-departed IBB/E director is in fact a good manager of people and
resources. He has promoted women and younger employees and has planned for
smooth transitions as key employees retire. He is also a qualiﬁed engineer with ﬁeld
experience and has credibility with the BBG Governors for having made his organi­
zation responsive. His selection as de facto day-to-day director of all IBB operations
is encouraging.

    The departure of the IBB/E director to become IBB’s deputy director opens an
opportunity for the director’s position to be ﬁlled by a well-qualiﬁed individual who
has either an Internet technologies or television engineering background. BBG’s
future success depends on catching up on its use of television and Internet delivery
systems, and this is an opportunity to acquire needed executive-level knowledge since
IBB/E is already rich in radio transmission talent. OIG shared this view with BBG
senior staff and governors. BBG commented that selecting a new ofﬁce direc­
tor based on Internet and television technology skills was too narrowly focused on
future technologies. It said that the position’s prime focus is ﬁnding opportunities
to improve local distribution of programs, primarily in markets with limited Internet
and television capability.

    IBB/E’s next director should take steps to develop a corporate culture that
informs employees, seeks their input, rewards exceptional performance, corrects
errors, and empowers the talent of the organization. It is especially important that
supervisors lacking managerial skills be given the training and encouragement to im­
prove their management of people. If employees do not see poor mid-level mana­
gerial performance being corrected, they will assume top management does not care.
OIG made formal and informal recommendations in these areas.

    There are two areas where IBB/E, with support from the BBG governors and
IBB management, should devote greater focus. First, management should place
priority on information technologies to be used with signal delivery and the Internet.
Second, management should emphasize the development and acquisition of new
technologies and innovations to accomplish its goals.

Information Technology

    The nature of twenty-ﬁrst century broadcasting necessitates that the leader­
ship of IBB/E and indeed BBG itself focus on IT. In 2004, the board of directors
agreed and responded to recommendations from the consulting company Ernst &




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   11 .


                                         UNCLASSIFIED
                                      UNCLASSIFIED




       Young and an earlier OIG report4 by creating a central technology organization and
       consolidating it within IBB/E. This reorganization also created the positions of
       CIO and chief technology ofﬁcer, the latter also serving as the IBB/E director. The
       CIO position was ﬁlled earlier in 2006 by a full-time employee. Despite the reorgani­
       zation’s beneﬁts, it did not go far enough in strengthening BBG’s technology focus.

           IT serves the BBG by providing the customary IT support provided by desktop
       computers (e-mail, word processing, etc.) and by broadcasting-speciﬁc computer
       services such as video and audio editing, program production, and satellite network
       control. Many of these functions require unique, customized software to serve the
       complicated needs of a global broadcaster that works around the clock, every day of
       the week, in 44 languages.

           A second way in which IT serves the BBG is by making the Internet a means of
       information delivery to target audiences. This is done through web pages, stream­
       ing audio and video, and new databased delivery services such as podcasting, Really
       Simple Syndication feeds, and VOAMobile.

            The IT directorate, however, is struggling to cope with an enormous task, and
       is not always succeeding. All of BBG’s operations in the Cohen Building in Wash­
       ington, DC, depend on old and barely adequate hardware and software, much of it
       several generations behind current standards. The acquisition and installation of
       video server technology to support VOA television is overdue. IBB/E’s engineers
       talk of putting time limits on VOA audio and video streaming to any individual
       listener because the organization’s budget does not support the rapid growth in this
       demand-driven delivery method. IBB/E’s efforts at podcasting and SMS messaging
       are experimental, although these media have become routine at other news organiza­
       tions.

            Despite the fact that IBB/E’s senior executives say, in the words of one, that
       “the Internet is the shortwave of the twenty-ﬁrst century,” BBG’s web presence is a
       stepchild to its traditional broadcasting efforts. VOA’s radio announcers, having rein­
       vented themselves once already as television producers, are now becoming web page
       editors too. VOA’s Internet presence appears to lag behind most of its competitors
       in style, content, presentation, features and readership. VOA said its web pages have
       been deliberately designed to be simple and user-friendly to audiences in countries
       where computer users do not have access to fast Internet connections. An Internet
       advisory team met at BBG for a couple of years before agreeing only on standards
       for measuring web page visitors. IBB/E engineers report that, even when they have

       4 Review of the Broadcasting Board of Governors’ Use of the Internet and New Technologies,
       IBO-A-04-03, March 2004


12 .               OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                      UNCLASSIFIED
                                         UNCLASSIFIED



new capabilities or services to offer VOA content producers, the latter are “too
busy” to be interested. On the other hand, VOA language program directors assert
that IBB/E engineers rarely come forward with new ideas and that the initiative must
come from their side.

    Not counting the journalists who prepare news scripts for use as web page
content, only ten people in VOA and IBB/E together support all of the page design,
technical support and hosting services for VOA’s web presence. Not surprisingly,
that web presence has a distinctly outdated look.

    BBG must engage in an organization-wide focus on the Internet and informa­
tion technologies. Resources and people, as well as management’s attention, need to
be realigned to make the Internet at least co-equal with BBG’s radio and television
efforts. Creating an increasingly effective and modern international broadcasting
system that reaches signiﬁcant audiences in support of U.S. strategic interests will not
happen without the Internet.

   Recommendation 2: The Broadcasting Board of Governors should review the
   balance of effort and resources it allocates to radio, television, and the Internet
   and develop an action plan that will assure that all of its broadcasters are taking
   the best possible advantage of these technologies. (Action: BBG)


    IBB/E, meanwhile, needs to pay attention to IT at the operational level. OIG
assessed IT at that level and made formal and informal recommendations.

Innovation and Development

    IBB/E is challenged every day to deliver radio, television, and digital informa­
tion into countries worldwide. Some of those countries’ governments actively block
VOA and grantees’ web sites and jam their broadcasts. At the same time, audiences
increasingly have choices about where and how to get information. All BBG broad­
casters depend on IBB/E to some degree to get their signal to listeners and viewers
in the most attractive, easy-to-receive way.

    Although years of budget reductions have left IBB/E with no research and
development fund, the organization has been receptive to innovations discovered by
employees in the course of their work. Managers mention that college interns have
often brought the organization new ideas and perspectives. But that is not enough.
Even without the dollars to commission new research and development, IBB/E can
seek actively to identify new technologies, discover potential solutions, innovate, and
overcome the current limitations on its capacity to deliver signals to audiences.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   13 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED



           IBB/E should also keep in touch with U.S. agencies, such as the Departments
       of Defense, Homeland Security, and the National Science Foundation to learn what
       technologies and innovations those organizations are developing that might have
       relevance to international broadcasting. Similarly, it needs to make a concerted effort
       to keep abreast of developments in commercial communications and broadcasting,
       especially Internet technologies. An active partnership with one or more university
       schools of engineering might also prove productive. A number of businesses are
       turning to “crowdsourcing” - using open-source challenges to solve problems. Lim­
       ited funding will foreclose some options, but there should be a search for creative
       thinking and applicable innovations in the research-and-development-rich environ­
       ments of the U.S. government agencies, universities, research labs, and the private
       sector.

          Recommendation 3: The International Broadcasting Bureau’s Ofﬁce of En­
          gineering and Technical Services should develop a list of steps it will take to
          identify new technologies, discover and test potential solutions, innovate, and
          overcome current limits on its ability to deliver signals to audiences. (Action:
          IBB/E)



       Notable Achievements and Best Practice

           IBB/E has made some achievements and adopted several best practices. These
       focus on the following areas:

           Installations -- IBB/E has designed, bought, and installed scores of FM, medium
       wave, and television transmitters in Iraq, Afghanistan, and other politically high
       priority sites. IBB/E routinely gets signals delivered in austere and even danger­
       ous locations in record time. There are virtually no simple installations in the places
       IBB/E must operate. Every project has its own special challenges, and usually it
       has an urgent, politically sensitive deadline. Despite the risks, physical hardships, or
       contracting difﬁculties, IBB/E has a commendable installation record.

           Antijamming -- The governments of China and some other nations regularly jam
       VOA and Radio Free Asia broadcasts and are just as aggressive in trying to block
       their citizens’ access to VOA and Radio Free Asia web sites. The Internet is a critical
       component in distributing program materials to those countries that are - or are be­
       coming - major Internet users. And China is one of the largest Internet users. The
       Chinese government, through a variety of ofﬁcial and unofﬁcial means, blocks e-mail
       from VOA and Radio Free Asia’s Internet provider and prevents access to their
       uniform resource locators and any content deemed controversial. This is unaccept­


14 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED




able, and IBB/E has worked with some state-of-the-art experts from think tanks and
industry to develop techniques to make its web sites available through proxy sites. It
is also working to keep ahead of the jammers and get e-mail messages through to
audiences. IBB/E has sponsored two symposiums with leaders in this area and has
sponsored research on technology to defeat Internet censorship. It has also looked
at how to use the cellular phone system to pass information into China and to use in­
stant messaging systems. Some of these areas offer promise but require more work
and increased funding.

    Telecommuting -- Employees describe IBB/E as a progressive, family-friendly
workplace. One of the principal reasons has been IBB’s, and especially IBB/E’s,
adoption of telecommuting, which has become important in an organization that de­
pends heavily on a maturing, highly skilled workforce and values trust, ﬂexibility, and
freedom. In many cases, an employee is the expert in his or her area, and there is no
backup. To work from home or on the road, a teleworker needs robust access to his
or her computer ﬁles at the ofﬁce, and this is provided by IBB/E’s secure telecom­
muting solution. With over 70 of 172 headquarters positions authorized to telecom­
mute, IBB/E keeps the work moving no matter where the workers are.

    Ofﬁce of Management and Budget Program Assessment Rating Tool Rating - IBB/E’s
strategic plan for 2005 received a 100-percent rating from the Program Assessment
Rating Tool, the only program in the U.S. government to receive a perfect rating to
date. This success has given the organization justiﬁable pride.




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   15 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





16 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





             POLICY AND PROGRAM IMPLEMENTATION




ENGINEERING TECHNICAL DIRECTORATE
    The Engineering Technical Directorate (E/T), one of four IBB/E directorates,
assesses appropriate technology and manages technology projects to satisfy BBG’s
mission requirements across its many broadcast media. The directorate has adequate
resources for its responsibilities and performs its responsibilities effectively and in a
timely manner.

Management and Resources

    E/T has two divisions, Satellite Systems and Broadcast Technologies, and it
relates to other IBB/E directorates through informal and formal means. Organiza­
tion lines are not as sharp as they appear on the organization chart. Because of the
interdependent nature of the work, E/T members assist various parts of IBB/E.

    E/T resources are adequate for the current level of E/T operations, even with
the planned reduction of two authorized positions. Stafﬁng includes 38 authorized
positions, two of which are vacant and slated for elimination, and the staff can ab­
sorb the additional work that will be caused by the loss of these two slots. Most of
the staff consists of professional engineers who have long seniority and are eligible
to retire now or in the next few years. Planning for a successor generation at E/T is
discussed in the resource management section of this report.

    E/T’s FY 2006 funding includes $38.1 million for operating expenses and $11.8
million for capital investments. Since FY 2000, stafﬁng has grown from 36 posi­
tions to 47 positions and then declined to 36. Operating funds also have ﬂuctuated
annually between $20.4 million for FY 2000 and the present $38.1 million for FY
2006. Over the period, IBB/E’s capital budget went from $26.8 in FY 2000 to $60.4
million in FY 2003 to $11.8 million for FY 2006. In addition, E/T manages approxi­
mately 34 satellite contracts worth about $30 million, and manages 20 other contracts
for capital projects worth about $10 million. A large portion of E/T’s professional
staff engages in oversight of contractor performance, a matter reviewed in the re­
source management section of this report.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   17 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




           E/T’s management has successfully conducted operations and met mission goals.
       Yet, during interviews with OIG, some engineers said they are too often, when as­
       signed a project, also given the solution and told to develop a means of implement­
       ing it. This approach does not consider the professional knowledge and experience
       of the staff. Professional staff suggested that deﬁning an objective and allowing
       them to propose potential solutions could better meet project objectives. OIG
       informally recommended that IBB/E management reexamine its practice of assign­
       ing projects with predetermined solutions and begin assigning projects deﬁned by
       their objectives and refraining from requiring particular solutions, unless doing so is
       imperative.

           E/T staff said there is inadequate communication from the higher levels of
       BBG and IBB management regarding agency and bureau plans and objectives.
       Moreover, mission changes regarding the choice of broadcast technology were also
       said to be unclear and to have produced confusion at the working level. In the past,
       shortwave transmissions were BBG’s preeminent broadcasting medium. However,
       shortwave is slowly being replaced, where feasible, with mediumwave and FM broad­
       casting and by the Internet and television, all of which are more effective means to
       communicate. The staff, however, is uncertain about how, when, and where these
       changes are to be made.

       Satellite Systems Division

           IBB/E’s Satellite Systems Division capably plans, implements, and manages the
       myriad operations of an international telecommunications network. This juggling
       act requires keeping many balls in the air simultaneously, and the division succeeds.
       Its wide-ranging responsibilities include distributing data, radio and television pro­
       grams, and other communications worldwide to transmitting stations or direct-to­
       home services in a variety of electronic formats. The division also establishes the
       requirements for ground installations that range from simple television receive-only
       receivers to massive satellite earth stations. In addition, the division arranges for and
       manages dozens of space-segment contracts with common carriers that provide the
       necessary bandwidth to transport the many different types of communications (such
       as analog and digital signals).

           The division currently leases transmission services on 13 satellites. The overall
       effectiveness of the satellite network has improved because the division has in­
       creased the bandwidth and because it is converting circuits from analog to digital.
       Digital transmission offers greater capacity, ﬂexibility, and economy.




18 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED



Broadcast Technologies Division

    The Broadcast Technologies Division effectively plans and manages IBB/E’s
capital projects in various broadcasting technologies and evaluates new and emerg­
ing broadcasting technologies. The division establishes the technical performance
requirements necessary to achieve a mission objective. These include the type of an­
tenna, transmitter, and frequency combination needed to provide a useful signal level
to a particular politically sensitive region. It also estimates the cost, schedule, and
performance characteristics of the resulting technical project and tracks and oversees
any contractual efforts to complete the project.

     One major aspect of the division’s work involves maintenance and repair proj­
ects at the transmitting stations and at production facilities at BBG’s Washington,
DC, headquarters. For FY 2007, E/T has requested $7.7 million to address the
ongoing needs of station sites and capital plant and equipment at BBG headquarters.
The work includes conducting and issuing condition site survey reports that docu­
ment present conditions at stations and making recommendations for projects that
will upgrade and improve the facility systems. The E/T staff also oversees contracts
awarded to private vendors to carry out maintenance and repairs.

Research and Development

    From its inception through the 1980s, IBB and its predecessors helped conduct
research and development that resulted in groundbreaking innovations, particularly
in shortwave broadcasting. The Engineering Technical Directorate management is
heir to this tradition and is receptive to new technologies. For example, E/T has
seized upon the rapid growth of digital satellite transmission technology and modi­
ﬁed its circuits to maximize data transmission rates and to reduce operational costs.

     One concern is that the management of E/T has not focused on inhouse re­
search and development. It has not done so for several reasons. Technical advances
made in commercial broadcasting, for instance, are already available in the market­
place and have proven useful for FM, television, and the Internet. In earlier years,
when shortwave broadcasting reigned supreme, research and development to take
advantage of technical advances in that area was important. Now, the marketplace
is elsewhere and funding is not what it was during the 1980s, limiting the resources
for independent research. Stafﬁng also has dropped during the period from FY 1994
through FY 2005, with IBB/E losing about 50 percent of its positions.




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   19 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED



           Given these realities, it does not appear feasible for IBB/E to establish a research
       and development group or organize committees to implement projects. Yet with
       minimal money and people IBB/E management could initiate innovative projects.
       One option would be to allow a staff member with a promising idea to devote work
       time to developing the idea. Another option is for E/T to partner with a university
       on research and development projects. OIG informally recommended that E/T
       develop and implement plans for targeted small-scale research and development
       activities.



       CONCERNS RAISED OVER NEW VIDEO NEWS
       PRODUCTION SYSTEM
           After launching its $20-million move from analog to digital audio for VOA news
       production, IBB/E began in 2003 to install a digital video newsroom management
       system known as NewsFlow.

           NewsFlow consists of off-the-shelf hardware and software that will enable VOA
       news personnel to record, edit, archive, research, and broadcast video news and
       feature content. It includes video servers, desktop editing equipment, asset manage­
       ment tools, and the hardware and software to support the system. It also has inter­
       faces to existing television, radio, intranet, and computing systems. The system will
       allow VOA’s television news editors to share digital content electronically, rather than
       wait for videotape to be copied and hand-carried from ofﬁce to ofﬁce.

           Almost all television organizations - from the smallest local station to Cable
       News Network - use some sort of digital video server technology in place of video­
       tape. The VOA installation, serving 44 language services in a nonstop environment,
       however, was at the time of the NewsFlow contract’s award unparalleled in its com­
       plexity. Several ofﬁcials told OIG that, when the contract was signed, everyone knew
       they were going into uncharted territory.

           Today, however, some VOA ofﬁcials question BBG’s $2.3-million contract with
       Technical Innovations, Inc. (TI) for NewsFlow and whether NewsFlow provides suf­
       ﬁcient performance. Several employees said the December 10, 2004, contract is over
       budget and that the system is overdue and has signiﬁcant shortcomings. One senior
       ofﬁcial said there was a two-year delay by the contractor in installing the system, that
       the system might be inadequate for VOA’s current and future needs, and that IBB/E
       has not sufﬁciently pressured the contractor to perform. OIG looked into these
       assertions and found the contract deliverables were not overdue, and the contract is


20 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED




not over budget. The TI contract has a ﬁxed price, and its completion date is June
30, 2006. The ﬁxed price nature of the contract means it cannot go over budget,
and the fact that the completion date came after the end of the inspection means the
contract could not yet be said to be overdue. In fact, the contract’s chief milestones
for deliverables have so far been met. There is general agreement today within VOA
and IBB/E, however, that video server technology has progressed since this contract
was competed. Today, there might be many more suppliers capable of providing a
more robust solution.

     There have also been several unforeseen technical problems in the NewsFlow
system’s deployment. The system was installed six months after the contract was
signed, and its installation had been preceded by a demonstration for BBG at one of
its sites, where the system worked well. However, during onsite deployment, glitches
developed. NewsFlow, for instance, was not able to handle “feeds,” the video input
provided via such sources as satellites and the Internet. It also had problems with
lip-synching voices with video during editing.

    To document six concerns about NewsFlow, such as the lip-synching problem,
BBG’s contracting ofﬁcer wrote a June 6, 2006, letter to TI’s president, saying these
matters must be resolved before BBG will grant conditional contract acceptance. In
response, TI said in a June 9, 2006, letter that the problems have since been ﬁxed and
that the system meets the contract’s speciﬁcations and purpose. The letter says the
system “has been through formal acceptance testing (including the IBB-approved
formal testing protocol executed June 27-July 1, 2005)” and its performance “has
been proven.” The letter also commits TI to bringing the system into compliance
with the contract’s speciﬁcations, if it can be shown the system does not comply.

    As to whether TI was the appropriate choice to provide NewsFlow, it is impor­
tant to note that the company won the 2004 contract over three competitors and that
VOA had been assessing its needs for a video/audio server system since 2000. Users
were fully and properly involved in developing the statement of work and in judging
the potential vendors’ capability. Furthermore, the contract’s award was preceded by
IBB/E’s evaluation of the proposals of the four qualiﬁed bidders. In this evaluation,
two of the four bidders were excluded because, in IBB/E’s view, they scored low on
technology and high on price. Subsequently, IBB determined that TI ranked higher
than the other remaining bidder on technology and had a lower price.

     Given that the NewsFlow contract is neither overdue nor over budget and that
TI has committed to resolving any of NewsFlow’s shortcomings, OIG cannot ﬁnd a
basis to recommend any corrective action. Furthermore, several VOA editors have
seen NewsFlow demonstrated and said they liked what they saw and looked forward
to its deployment.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   21 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





22 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





                           OPERATIONS DIRECTORATE


    The Engineering Operations (EO) directorate is clearly fulﬁlling its mission of
managing IBB’s global transmission network. Although it has fewer staff than in the
past and BBG is moving to new transmission strategies, EO’s customers say that it
performs well. OIG found that IBB needs to create formal written procedures for
its NCC and that a review of occupational safety and health-related conditions was
warranted.

   EO includes the Spectrum Management Division, Network Support Division,
and the NCC. It has 36 employees and two vacant positions.



SPECTRUM MANAGEMENT DIVISION
    The Spectrum Management Division, whose director is called the program deliv­
ery director, has ﬁve employees and two vacancies. The director’s new title reﬂects
BBG’s change in focus from traditional shortwave propagation toward FM and
Internet delivery. The change also demonstrates IBB/E’s planning and preparation
of the staff and structure for its future.

    The division manages the radio frequency requirements of the global trans­
mission network. It also formulates the transmission schedule for the network by
indicating which network resources (such as transmitters, antennas, and frequencies)
are assigned to each broadcast program throughout the day. The schedule records
the program transmissions, the stations to which they are sent, the times at which
they are sent, and languages in which they are composed. Three people perform
this function, but they have accepted additional responsibilities, as two vacancies in
the division have not been ﬁlled. The international scheduling process requires the
commitment of money and travel time so that employees may attend long, tedious
meetings at distant conventions. IBB/E, however, has decided to rely on other agen­
cies to represent it a most of those meetings. One employee spends four to ﬁve days
a month at coordinating meetings, for instance. The World Radio Conference 2007
is an important meeting for its international negotiations on frequencies.

    In April 2003, IBB/E created a program coordinator position in the division to
increase communications with customers. Currently, the head of the division is also


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   23 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       performing that position’s duties until the job can be ﬁlled. The program coordina­
       tor attends IBB’s performance reviews and serves as a liaison for engineering mat­
       ters. An IBB/E ofﬁcial said the liaison’s mandate to work on relations with all the
       BBG broadcasters has improved customer relations signiﬁcantly.

          IBB/E is in the business of signal delivery, and yet employees said the resources
       dedicated to measuring success in that task are declining. Monitoring has typically
       been done for shortwave broadcasting, and the division directs IBB/E’s technical
       monitoring of shortwave and mediumwave broadcasts overseas.

           There is a global network of about 50 human monitors and computer-based
       remote stations that sends reports to BBG headquarters on the broadcast network’s
       signal strength and quality. In addition, there are four overseas monitoring ofﬁces,
       which are typically staffed by two Foreign Service nationals each. The division makes
       its monitoring information available on the Internet to BBG’s language services
       operations and to management. With the gradual decline in shortwave transmitters
       and the rise of budget restraints, monitoring has been reduced. The division recently
       closed its monitoring ofﬁce in Bahrain and is closing its ofﬁce in Accra, Ghana.
       About eight division employees once traveled overseas to do monitoring oversight,
       but now no longer do this. It will be difﬁcult to rebuild this monitoring system.

           Despite the growth in BBG’s dependence on leased and owned FM transmitters
       and on FM afﬁliates that carry BBG signals, the division does not make compre­
       hensive veriﬁcation and monitoring a priority. If an FM afﬁliate does not receive a
       transmission or mysteriously goes off the air, IBB/E may hear about it through jour­
       nalists or listeners on the ground - or from an irate station owner. IBB has the ability
       to monitor afﬁliate FM stations if it has monitoring equipment in that area and
       knows the schedules and basic information for the stations. The division, however,
       does not monitor TV or satellites.

           The Internet is an increasingly important means of signal delivery in many target
       areas, but if a web page goes down, someone must call IBB/E’s help desk to get at­
       tention to it. When the links on the Lao service’s web site are streaming a program
       in the wrong language, the Lao service must take notice and call for help, if needed.
       The division has added the ability to monitor the Internet, which it could do any­
       where that IBB has a remote monitoring station. (The division’s monitoring repli­
       cates an average citizen’s access level.) An IBB/E ofﬁcial said it is hard to use this
       information to make decisions, but that the information does give a ﬂavor of what is
       going on in these countries. He explained that all international broadcasters are alert
       to whether or not their web presence is being delivered successfully. He said that it
       would be physically and logistically impossible, however, to monitor the experience
       of Internet users worldwide.

24 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED



    BBG management needs to reconsider the traditional deﬁnition of monitoring
and assess whether shortwave, FM, television, and the Internet are equally viable
and important delivery vehicles and seek ways to ensure that all signal transmissions
are monitored so that remedial action can be taken quickly. Its monitoring should
encompass FM broadcasting via afﬁliates and leased or owned stations and the use
of the Internet and related technologies to deliver content.



NETWORK SUPPORT DIVISION
    The Network Support Division has seven employees and provides the logistics
support essential to sustaining the transmitting station system. It develops, imple­
ments, and administers logistics plans and policies, including property accountability,
inventory management, and transportation management. It also is the focal point
for safety-related issues and reviews and updates transmitting station instructions.

     The division strives to bring efﬁciencies to stations. One employee monitors
energy and electricity consumption and has made recommendations for savings. The
division has also established good databases for tracking contracts and communicates
with stations using an e-mail system that ensures that requests and questions receive
responses, even if the addressee is away. That system also has a search function that
facilitates management oversight.

    A division ofﬁcial said that he is always seeking to reduce waste and save money.
For example, vehicles used to be replaced at 50,000 miles; now, they are replaced at
70,000 or sometimes 100,000 miles. He said he also tries to manage the use of tubes
and capacitors and makes sure there is no stockpiling. (Tubes cost from $10,000 to
$180,000.) The division is part of a “tube bank” system under which it buys in ad­
vance a few certain types of tubes for quicker shipment when the tubes are needed.
This minimizes the amount of time it takes to build a tube (usually four months)
and saves on shipping costs and replacement costs if a tube does not work once it
reaches the station.

     When the Greek transmitting station was scheduled for closing, the division sent
a representative to oversee property redistribution and management and sent other
stations a list of property available for redistribution. (The most expensive items
were vehicles.) IBB/E expects to save $70,000 by reassigning a van and pickup truck
from Greece to Morocco (pending Greek government approval) and by not paying
for new vehicles for Morocco. IBB/E will save $35,000 by reassigning a van from
Greece to Kuwait and not buying a new one.


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   25 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED



            As BBG uses fewer shortwave transmissions and relies on AM and FM subsid­
       iary stations, the division is expanding its support. It recently published a new Trans­
       mitting Station Instruction regarding subsidiaries. It also gives direction for shipping
       and property management. (IBB wants its transmitting stations to check up more
       often on the FM and AM subsidiary sites near them, and the transmitting stations
       have adjusted.) A division ofﬁcial said that this new support “gives the transmitting
       stations a mission they can evolve to.” It is hard to ﬁnd money, especially for ship­
       ping, now that the division is supporting FM stations.

           The division has a safety ofﬁcer who visits stations. With a restricted budget, of­
       ﬁcials say, travel is one of the ﬁrst things to be eliminated or reduced, and the safety
       program will suffer. The safety ofﬁcer ﬁles monthly accident reports compiled from
       the stations. He monitors electrical safety and tracks power regulations. A divi­
       sion employee said that the Occupational Safety and Health Act of 1970 requires
       an organization to budget for its safety program. On an OIG questionnaire, station
       managers said the “centralized management of safety standards and resources could
       be signiﬁcantly improved,” and that the front ofﬁce “should be more proactive in
       putting out occupational safety information in the workplace.”

       Network Control Center

           The NCC operates the global network from Washington, DC, on a 24-hour basis
       and is a focal point and primary source of expertise within IBB/E regarding the
       operating status of IBB’s global systems. The NCC has 19 employees and two divi­
       sions, Internet streaming and satellite operations. It provides circuit switching, trafﬁc
       coordination, network quality control, network performance assessment, remote
       monitoring, status reports, outage reports, patching and operational distribution of
       television, and associated audio and data feeds.

           The NCC is evolving with BBG’s move to newer transmission delivery systems.
       The last two employees it hired were for Internet streaming. The NCC recently be­
       gan using a new Internet streaming system, which is said to represent a big improve­
       ment. Management has made other changes, including moving to a 24-hour, seven­
       day-a-week schedule and establishing a continuity of operations facility in Maryland,
       which will serve as a backup facility for NCC operations. During this inspection, an
       NCC priority project was to set up facilities for the Middle East Broadcasting Net­
       works’ Alhurra Europe.




26 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED




Operations Cross Training

    Managers and staff in EO advised OIG of their potential to use cross training.
In some EO areas, there is only one person who has the speciﬁc skills for an opera­
tion. Shift work is done in the NCC, but there are sometimes not enough people to
cover a shift. In the Spectrum Management Division, some employees are each do­
ing jobs that were previously done by two people. In these cases, the employees were
teaching themselves to do these jobs or were using on-the-job training. At times,
IBB retirees were hired as contractors to help that division temporarily. Several tech­
nical people in that division said there was a two-year learning curve for their skills.

    When asked about cross training, most of IBB/E’s technical staff maintained
that their assignment was too specialized for someone else to learn as a second ﬁeld.
In more general areas, such as the Network Support Division’s policy and procedures
specialty, however, staff agreed that cross training would be possible. Long-time
employees said that someone else could learn their jobs, but would lack the histori­
cal and analytical perspective. In general, management maintained that employees
had the training that they needed for operations, but not for learning new specialties.
These statements make sense and indicate that the possibilities for more cross train­
ing are extremely limited.

Operations Directorate Challenges

     The Operations Directorate faces the same management challenges as other
directorates: tight budgets and dwindling staff numbers. Many employees agreed
that its biggest problems relate to resources. One division ofﬁcial said the division
“has more work to do and fewer people. It is under time pressures. People feel
overworked. The situation will reach a breaking point. IBB/E will have to say ‘no’
more often.” In such a situation, EO must attend to its workforce, and its leadership
must have the necessary management skills to ensure that the dwindling work force
is efﬁcient and productive.

    The NCC, meanwhile, lacks written procedures. It is a standard practice in
managing sophisticated technology to have written standards to ensure that complex
technical operations are conducted properly. This is especially desirable when there
are large numbers of staff members and the operation is maintained 24 hours a day,
seven days a week. Such procedures serve as a reference for new employees and
can be of great value in unusual or emerging situations. The process of preparing
written procedures may clarify problems or issues that were previously poorly under­
stood. Written procedures also tend to clarify the expectations of supervisors, may


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   27 .


                                         UNCLASSIFIED
                                      UNCLASSIFIED




       assist in communications between shifts (although the log maintained during shifts
       has been the primary means of maintaining continuity), and may facilitate the use of
       new equipment. Because the NCC may begin to lose staff through retirements, it is
       especially important to use written procedures to capture expertise before it is lost.
       Although there have been attempts to record the procedures, they have been unsuc­
       cessful. If necessary, IBB could hire a consultant to complete this project.

          Recommendation 4: The International Broadcasting Bureau’s Network Con­
          trol Center should develop and implement written procedures for its operations
          in unusual and emerging situations. (Action: IBB/E)


           IBB needs to pay more attention to workplace conditions and to correct some
       safety hazards. Nothing on IBB’s intranet web site discusses workplace safety for the
       Washington premises, although the NCC has many wires and cables running across
       an area that employees must continually cross in the course of their work. Many
       of the cables no longer have any function and could easily be removed. In addi­
       tion, cables protrude from the ceiling, and their weight is causing it to sag. As one
       employee put it, “The room keeps getting more fans, higher frequencies, and more
       phones.” IBB/E has been forced to share its NCC with some of VOA’s operations,
       and those responsible for this have attempted to put too much in one room.

           Although VOA plans to remove the problematic operations from the NCC, the
       premises nonetheless are now hazardous to workers. Employees say two workplace
       injuries occurred inside this hazardous area. Federal occupational safety and health
       standards apply to federal workplaces,5 and IBB employees have complained about
       these unsafe conditions.

          Recommendation 5: The International Broadcasting Bureau’s Ofﬁce of Engi­
          neering and Technical Services should arrange for a qualiﬁed individual or team
          of occupational safety and health inspectors to conduct an inspection of their
          Washington, DC, ofﬁces to identify unsafe or unhealthy working conditions.
          (Action: IBB/E)


          Recommendation 6: The International Broadcasting Bureau’s Ofﬁce of En­
          gineering and Technical Services should correct all conditions identiﬁed in the
          foregoing occupational safety and health inspection. (Action: IBB/E)


       5 29 U.S.C. § 668, 29 U.S.C. § 655, 29 C.F.R. 1960.




28 .               OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                      UNCLASSIFIED
                                         UNCLASSIFIED




            INFORMATION TECHNOLOGY DIRECTORATE


    The IT directorate manages all of BBG’s IT software and hardware, including
desktop computers and other typical equipment and the IT necessary to perform the
operations of IBB’s broadcasting facilities. Positive steps have been made towards
improving IT services, pursuing technological advances, and improving cooperation
among the divisions. However, more needs to be done, including giving the IT di­
rectorate an effective voice in new initiatives and making it visible as the IT authority
for project planning. Efforts must also be made to improve communication within
the IT directorate and to include the vision and direction of the directorate in IBB/
E’s strategic plan. The directorate also needs to improve coordination with VOA
regarding Internet web sites, address critical network infrastructure vulnerabilities,
and improve project management. Additional areas for improvement include codify­
ing work processes in SOPs and adhering to established procedures for procuring IT
equipment. OIG provided counseling and made recommendations to correct these
problems.

   The IT directorate was formed in 2004 to consolidate disparate ofﬁces that
handled IBB’s computer operations. The consolidation of the various IT elements
and subsequent efforts to centralize systems administration of transmitting stations
networks were the foundation for the positive steps that have been taken recently.

    The IT directorate originally had three divisions, but in late 2005 added two VOA
divisions, Internet services and digital media. The IT directorate has a staff of 59
and is headed by a director who reports to the chief technology ofﬁcer. The direc­
torate’s comprehensive computing services include network connectivity, software
application development and maintenance, support for agency web sites, support for
agency broadcast media applications, and user help desk services.

    Although there historically had been distrust among IT elements within the
agency, the IT director has fostered a more collaborative workplace and has increased
effectiveness and improved overall support to customers. As is true in other federal
agencies, network availability is critical to the mission. However, BBG is unique
among its counterparts in having prevented overall network outages in 2005 and in
ensuring that critical data was available to users. The IT directorate also persistently
eliminated almost all instances of “spam” e-mails and undertook the rapid rollout of
a content management system that had been modiﬁed to display web sites in over 40



OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   29 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       type fonts, including those reading from right to left. The IT directorate has also de­
       ployed a system to track user trouble tickets centrally for all IT services and has made
       advances in technology, including developing a VOA-branded ﬂash media player and
       web chat services in 40 languages and expanding the number of podcasts from six to
       100.

           The CIO interprets federal statutes on IT and develops policies for their applica­
       tion within IBB. The CIO reports directly to the BBG, but has an unclear organiza­
       tional relationship with the IT directorate. Since the present CIO is relatively new in
       the job, it is difﬁcult to assess what impact this position will have. Ideally, the CIO
       could use his knowledge of technology and business processes and a cross-function­
       al perspective to become the manager most able to align the organization’s technol­
       ogy deployment strategy with its core mission strategy. In most organizations, the
       CIO oversees technology purchases, implementation, and the various related services
       of the information systems department. A strong CIO will enhance the role of IT
       in BBG.

           Many directorate employees see IT and the activities of the IT directorate as
       lacking strong advocates within the highest levels of BBG. Many of the staff also
       believe the directorate does not have enough clout within IBB/E to voice concerns
       when projects are initiated. With IT resting on a lower tier organizationally, it has
       been difﬁcult to get attention to some issues, such as the limitations of existing infra­
       structure, and to see how that action impacts new projects. This is also the case with
       such mundane activities as ofﬁce moves, which can affect IT resources enormously.
       Also, the lower proﬁle of the IT directorate means that its authority over IT matters
       is poorly understood, and enforcing IT policies and procedures is a continuous chal­
       lenge.

           Many directorate employees do not believe they are kept well informed by man­
       agement. Most of the directorate’s divisions do not have staff meetings, and the IT
       directorate has no newsletter. Staff reported not having any clear sense of what was
       required or expected of them and that work requirements statements and position
       descriptions were often vague, too general, or outdated. Many staff claimed there
       is no process for assigning or tracking work assignments, and others stated that they
       had to ﬁnd projects for themselves. In some divisions, this has led to a productive
       sense of independence; in others, work was not getting done. OIG counseled man­
       agement on the need for improvement in these areas.




30 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED



THE INFORMATION TECHNOLOGY DIRECTORATE’S
STRATEGIC PLANNING
     The IT directorate has no internal strategic plan, and BBG’s strategic plan for
2002-2007 includes scant information regarding technology goals for the directorate.
For BBG to reach its goals of “employing modern communication techniques and
technologies,” the IT directorate’s support for these technologies requires adequate
resources. There also must be agreement on what metrics will be used to judge
progress toward goals. Since the IT directorate itself has no performance plan, it
has difﬁculty providing BBG with an understanding of what is required to meet the
agency’s technological goals and objectives or to justify additional resources. With­
out adequate resources, the directorate will incur signiﬁcant problems in fulﬁlling the
agency’s technology goals and objectives. The directorate has hired an employee to
specialize in policy and planning, and this employee has initiated the development of
a strategic plan. These efforts at strategic planning are welcome.

    Recommendation 7: The International Broadcasting Bureau’s Ofﬁce of En-
    gineering and Technical Services should develop an annual strategic plan for
    the Information Technology directorate that is aligned with the Broadcast
    ing Board of Governor’s strategic plan and Broadcasting Board of Governor’s/
    Engineering Performance Plan and which includes speciﬁc, measurable steps
    toward agreed-upon goals that can be discussed, funded, and periodically
    reviewed by managers. (Action: IBB/E)

Internet Services

    Coordination is lacking between VOA and the Internet Services division. The
former provides content for the VOANews.com web site, and the latter is respon­
sible for the delivery of content through various technologies. This lack of coor­
dination arises in large part because of a difference of opinions over the roles and
responsibilities of each ofﬁce ad over whether content or technology should drive
decisions regarding BBG’s Internet presence.

     For example, Internet Services is eager to pursue new and innovative technolo­
gies for delivering content such as Really Simple Syndication, podcasting, and web
sites for mobile devices (VOAMobile). Internet Services also believes that it is the
driving force behind such innovation and that, without this, the VOA web site can­
not evolve to keep pace with current technological trends and user demands. VOA,
on the other hand, believes that content alone should drive decisions to pursue new
technologies and that Internet Services is implementing technologies that VOA did
not request.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   31 .


                                         UNCLASSIFIED
                                   UNCLASSIFIED


           Furthermore, BBG fails to provide direction regarding the Internet’s role in
       fulﬁlling its mission. The BBG Strategic Plan for 2002-2007 says one objective is to
       “ensure that all entities have world-class Internet presences.” This includes web sites
       in 44 different languages, displayed in 44 different fonts.

           VOA has one senior Internet coordinator to coordinate content development for
       these web sites. Other staff members work on a collateral basis to contribute stories
       to the web site, some even working from their homes on their own time. The site’s
       content is adapted from stories originally developed for radio and television broad­
       casts. Relatively little original content is being developed speciﬁcally for the Inter­
       net, with the exception of that developed by some of the larger VOA units (such
       as Central Services and the Mandarin and Persian services). This lack of resources
       demonstrates the subordinate nature of the Internet as a news medium within BBG.
       Coupled with the philosophical impasse between VOA and Internet Services, the
       lack of emphasis on the Internet creates a challenge for BGG to remain competitive
       with other major news outlets for audience share.

           As noted, the solution to many of these problems will likely come from an
       enhanced focus by senior BBG management on the Internet and IT. The board of
       directors and senior managers must regard IT as the BBG’s foundation and come to
       see the Internet as a core means of accomplishing the BBG’s mission.

       Network Infrastructure

           IBB’s network infrastructure cannot support the bandwidth-intensive media ap­
       plications currently in development. The infrastructure is a composite of multiple
       technologies, including an outdated asynchronous transfer mode network that ap­
                                                                                        (b) (2)
       proximately 50 percent to 75 percent of users still depend on for many services. (b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)      The bridge between the asynchronous transfer mode
       portion of the network and the upgraded portions of it is a weak link that threatens
       network crashes and denial of availability.

           The Federal Information Security Management Act mandates that all federal
       agencies assure the integrity, conﬁdentiality, and availability of their information and
       information systems. The IT directorate is aware of the network’s vulnerabilities
       and has taken steps to improve network redundancy. An enterprise management
       project is underway to upgrade the network infrastructure and fully replace the asyn­
       chronous transfer mode portion of the network, and it is approximately 60-percent
       complete. The IT directorate’s efforts to resolve these critical infrastructure issues
       are encouraging.

32 .            OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                   UNCLASSIFIED
                                         UNCLASSIFIED



Project Management

     The directorate’s project management does not comply with established IBB pol­
icy. IBB policies regarding project management are not being followed, as prescribed
in the IBB Manual of Operations and Administration, Section 1109. The organiza­
tional culture appears to have placed little emphasis on documenting work processes
and enforcing adherence to written procedures. As a result, some projects, especially
software applications development, have been allowed to go past deadlines or have
been dropped entirely, even after months of development. The accepted process is
for developers to “try and see” what new applications they can develop in a freelance
manner. Documentation of the resulting workﬂow processes is scant. There is no
methodology for iterative applications development, such as the Capability Maturity
Model Integration approach. Since the directorate is already low on funds, improp­
erly managing projects would only further strain agency IT funds. OIG informally
recommended that IBB enforce the Manual of Operations and Administration
policy regarding all IT projects and their management.

Standard Operating Procedures

    The IT directorate lacks the written IT SOPs required by federal guidelines. Of
the ﬁve divisions within the directorate only two have written SOPs. The National
Institute of Standards and Technology’s Special Publication 800-12 states that SOPs
are needed for assisting organizations with compliance of applicable security poli­
cies, standards, and guidelines. The lack of written protocols in the directorate leaves
technical knowledge with speciﬁc individuals, which could result in a small to critical
interruption in day-to-day operations if the personnel having the technical knowl­
edge leave the agency.

   Recommendation 8: The International Broadcasting Bureau’s Ofﬁce of Engi­
   neering and Technical Services should direct its Information Technology direc­
   torate to develop and implement written standard operating procedures for its
   information technology processes. (Action: IBB/E)



Information Technology Procurement

   IBB is procuring computer hardware without complying with IBB policy. An of­
ﬁce within IBB has purchased Macintosh computers without approval from the CIO.
The IBB Manual of Operations, Section 1305.4, states that the CIO must approve
procurements undertaken outside of established mandatory standards and that the


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   33 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       ordering ofﬁce must fund the support costs. These Macintosh computers can intro­
       duce security vulnerabilities when they are connected to the network and strain the
       IT directorate’s support capabilities because it has no experts in Macintosh systems.
       OIG found various other examples of new technology that was purchased without
       coordination with the IT directorate. These ofﬁces have subsequently expected the
       directorate to support these technologies, thereby further straining the directorate’s
       resources. OIG informally recommended that IBB enforce the Manual of Opera­
       tions and Administration’s policy regarding procurement of IT equipment.




34 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED





               ENGINEERING RESOURCE DIRECTORATE


     The Engineering Resource directorate performs the functions, work, and spe­
cial projects that enable IBB/E to carry out its mission of implementing, operating,
and maintaining a global communications system. The directorate is performing
well, and its new director is implementing changes to rationalize the workload and
enhance cross training among staff. Relations between the directorate and the IBB
Ofﬁce of Management and the BBG Ofﬁce of the Chief Financial Ofﬁcer (CFO)
are effective and productive.



MISSION AND FUNCTIONS
    The resource directorate plans and implements the IBB/E budgets and provides
planning, ﬁnancial management, administrative, procurement, and human resources
(HR) support to IBB/E Washington ofﬁces and transmitting stations worldwide. Its
existence reﬂects the complexity and quantity of ﬁscal, procurement, and person­
nel issues in IBB/E’s work and the need for staff liaison to keep IBB/E running
smoothly. The resource directorate works closely with the main IBB management
ofﬁces where IBB’s human resource, contracting, and administrative functions are
centralized. The directorate also coordinates closely with the CFO on budgets, stra­
tegic planning, and ﬁnancial management.



STAFFING AND ORGANIZATION
     The directorate has two sections, a strategic and capital planning unit (three em­
ployees) and a ﬁnancial management and administrative support unit (10 employees).
The directorate’s new director is implementing changes to rationalize stafﬁng and
reallocate the workload to ensure the work is distributed equitably. The director is
continuing to review operations to identify additional areas for improvement.

   As part of the staff realignment, one program analyst and three administrative
ofﬁcers who supported other IBB/E directorates have been reassigned to the re­
source directorate, where they continue to support their former ofﬁces. Centralized
support functions allow for consistency, ﬂexibility, and facilitate cross training. The


OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   35 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       lines of reporting and supervision for the transferred employees need to be clariﬁed
       and formalized. Currently, the employees receive taskings and direction from the
       director of the resource directorate and from the chiefs of their former directorates.
       Resource directorate employees said they would welcome such clariﬁcation, and the
       resource director agreed to address this matter and ensure that position descriptions
       and performance standards will be revised to reﬂect the changes.

            The ofﬁce structure of the resource directorate is unusual. As part of the “Re­
       inventing Government” initiative of the 1990s, IBB/E’s organizational structure was
       ﬂattened and the number of deputy ofﬁce director and team leader positions was
       reduced. As a result, each resource directorate employee in pay grades from GS-9
       through GS-15 reports to the resource director, who must therefore write the annual
       performance evaluations for 13 employees. This also means that IBB/E’s director
       is each employee’s reviewing ofﬁcial. Although the director and the staff have not
       identiﬁed any adverse effects from this arrangement, the situation raises some span­
       of-control questions and creates an unnecessary administrative burden for the direc­
       tor and IBB/E chief. Additionally, by designating some positions as “team leaders,”
       the resource directorate would create a career mobility and development opportunity
       in an organization where few such opportunities exist. Engineering Resource’s direc­
       tor agreed to review the directorate’s ofﬁce structure.

           In recent years IBB/E’s annual allotments have cycled from $155 million in FY
       2004, down to $147.7 million in FY 2005, to $157.79 million in FY 2006. Similarly,
       IBB/E’s authorized American stafﬁng has gone from 254 in FY 2004 to 268 in FY
       2006. These changes occurred as IBB/E was tasked with signiﬁcantly increasing
       satellite television distribution for Al-Hurra; installing ﬁfty new full time FM stations
       in the Middle East (Radio Sawa), Africa, Iraq, and Afghanistan; adding a Cyprus
       medium wave relay for Radio Sawa; putting in new transmitters across Afghanistan;
       absorbing the IT group ($15 million and 70 authorized full-time employees); and
       establishing the CIO function (three full-time employees).




36 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED



                            RESOURCE MANAGEMENT




HUMAN RESOURCES MANAGEMENT
    At the time of the inspection, 21 of IBB/E’s 174 authorized positions were
vacant. IBB/E plans to ﬁll these vacancies and is reallocating the positions among
the directorates to meet its workload and skills needs. The most notable effect will
be in the IT directorate, which has 10 vacancies. IBB/E plans to ﬁll these 10 posi­
tions and will transfer one additional position to the directorate. The positions are to
be ﬁlled with employees who are proﬁcient either in digital media, user support, or
Internet systems and services. Although there is a BBG-wide hiring freeze in effect,
IBB/E has so far received some exceptions from the freeze to ﬁll vacant positions.

    BBG’s FY 2005 Performance and Accountability Report identiﬁed human capital
issues as one of IBB’s major management challenges. To address these challenges
and its sweeping HR needs, IBB conducted a workforce review and issued a Human
Capital Plan and Human Resources Strategies report in October 2005. The report
contains an analysis of the current workforce; an examination of challenges facing
IBB in obtaining an agile, skilled, diverse, and well-led workforce of the future; and
human capital goals and strategies.

    IBB/E faces these same challenges, which include a need to recruit and retain
the next generation of employees, ensure that employee skills keep pace with evolv­
ing technologies, cultivate management and leadership skills, and ﬁnd ways to reward
and recognize employees. IBB/E is working to address these issues and should
coordinate with the IBB Ofﬁce of Human Resource and the BBG Ofﬁce of Civil
Rights to develop its strategies. Some of its efforts, however, will be hampered by
continuous budget and other resource constraints.

Workforce Planning

    Recruiting and retaining replacement talent is critical for IBB/E to carry out its
mission. There are two related challenges to achieving this objective. First, IBB/E
must deal with the effects of the wave of baby boomer retirements, which is ex­
pected over the next several years. Second, IBB/E must ensure that its workforce
has the skills to deal with emerging technologies in an ever-changing multi-media
environment.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   37 .


                                         UNCLASSIFIED
                                      UNCLASSIFIED


           IBB has approximately 1,800 employees (about one half of them in the broad­
       cast ﬁeld) and their average age is 50.3. IBB/E’s staff is even older, with an average
       age of 54. IBB’s HR ofﬁce estimates that from 2006 to 2010 approximately 63 per­
       cent of the IBB workforce will be eligible to retire, and at least 20 percent will retire
       then.

           Reductions in force (RIF) and hiring freezes have limited IBB/E’s ability to
       recruit and nurture the next generation of employees. Drastic IBB-wide stafﬁng cuts
       in the late 1980s and early 1990s, coupled with sporadic hiring freezes beginning in
       the 1980s, left many IBB ofﬁces, including IBB/E, with lean staffs and little depth.
       The most recent hiring freeze (which applies to domestic and overseas positions)
       was imposed in March 2005. Additionally, at the time of the inspection, IBB was
       concluding a buyout period, which accelerated retirements. As of May 2006, eight
       IBB/E employees had submitted requests for buyouts.

            The hiring freezes and buyout program aimed to address budget constraints and
       avoid furloughs and RIFs but are creating hardships throughout IBB. IBB/E realiz­
       es, however, that retirements present an opportunity to reshape its workforce to meet
       new requirements, priorities, and technologies. With the ascendancy of new media,
       a ﬂexible workforce with new competencies is needed. Indeed, part of the rationale
       for the buyout program was to facilitate a skills adjustment throughout IBB.

           The IBB-wide hiring freeze has been in effect a long time and is being misused.
       Instead of openly changing the stafﬁng plan, so that coming adjustments in staff­
       ing are clear to all, IBB management seeks case-by-case waivers to the hiring freeze.
       Employees and many supervisors are left to puzzle over the rationale for why one
       vacancy is ﬁlled and another is not, and career planning for younger employees
       becomes ﬁlled with uncertainties. Some employees suspect that the waiver process
       enables the politicizing of personnel decisions. A hiring freeze should be a tempo­
       rary, emergency measure.

          An organizational structure review of the IBB/E, along with a position manage­
       ment review, would help determine the stafﬁng needed to achieve goals and could
       provide information that would facilitate ending a hiring freeze.

          Recommendation 9: The Broadcasting Board of Governors should review
          the current process for determining whether a vacant position should be ﬁlled
          (waivers and exceptions to the hiring freeze), identify possible improvements
          to expedite the process, and make the necessary changes to implement the im­
          provements. (Action: BBG)




38 .               OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                      UNCLASSIFIED
                                         UNCLASSIFIED



   Recommendation 10: The Broadcasting Board of Governors within six
   months should conduct an organizational structure review of the Ofﬁce of
   Engineering and Technical Services, including a position management review,
   to determine which positions are needed to accomplish the ofﬁce’s goals within
   projected resource levels. (Action: BBG)


   Recommendation 11: The Broadcasting Board of Governors should develop
   and implement a new procedure to keep stafﬁng plans up to date and use the
   new procedure to determine future changes in the workforce as they become
   necessary. (Action: BBG)


     To address future needs, IBB and IBB/E are starting to identify and build the
workforce of the future through recruitment. For IBB/E, this is especially challeng­
ing. For instance, a May 2006 study by the nonproﬁt Partnership for Public Service
found that engineering students tend to be less interested in federal jobs than most
other students; they take more lucrative jobs with the private sector and avoid the
lengthy, cumbersome, and painful federal hiring process. IBB/E offers some recruit­
ment incentives, though they are relatively meager compared to those of the private
sector. Incentives can include bonuses (subject to availability of funds) and what
are known as “advanced-in-hire rates/superior qualiﬁcations appointments,” which
means entering a job at a higher pay step than would normally be the case. Other
incentives include a higher accrual rate for annual leave, essentially starting with six
hours rather than four hours per pay period, and opportunities for alternative work
schedules and teleworking.

     IBB’s HR staff has visited colleges and job fairs; however, budget constraints
limit its efforts and the funding for travel is low. The HR staff ’s participation in an
“e-job fair” based on the Internet was a low-cost effort. IBB/E is working to estab­
lish good relationships with the colleges whose alumni work for IBB/E. IBB/E is
also using a variety of alternative hiring mechanisms, such as hiring paid and unpaid
interns, Presidential Management Fellows, and coop students. These mechanisms
expedite the hiring process. During the summer of 2006, IBB/E will employ ﬁve
interns and one Presidential Management Fellow.

Minority Representation and Recruitment

   Women and minorities are underrepresented in IBB/E, primarily for two rea­
sons: First, women and minority engineering students have arrived late in the engi­
neering ﬁeld and are underrepresented at colleges and universities. Second, several
RIFs in the past disproportionately affected women and minorities, who tend to have

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   39 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       less seniority than others and thus are the most vulnerable to RIFs. A few years ago,
       IBB hired several new employees, including women. However, with RIFs, these were
       the ﬁrst employees let go. IBB’s last RIF, however, was in 1995. Other employees
       left in anticipation of additional RIFs and in response to their doubts about the
       organization’s viability.

           According to the IBB Human Capital Plan, approximately 36 percent of IBB
       employees are women. In IBB/E, women are 25 percent of the workforce, and
       minorities are represented at a far lower level. The plan reports that 28 percent of
       IBB-wide supervisory positions are held by women; in IBB/E, as of April 2006,
       there were only seven women at the GS-14 and GS-15 levels. Over the years, IBB
       has faced legal challenges concerning gender bias and discrimination. During the
       inspection, OIG received no complaints about discrimination in IBB/E, and the IBB
       Ofﬁce of Civil Rights reported no pending cases. Supervisors and managers receive
       mandatory Equal Employment Opportunity and diversity training.

            IBB is working to increase the representation of women and minorities in the
       technical ﬁelds and its Ofﬁce of Civil Rights is developing a comprehensive recruit­
       ment plan that will identify the pockets of under representation in BBG. IBB/E will
       be included in the plan, although the Ofﬁce of Civil Rights’ director said the major
       efforts will be directed at recruiting employees for IBB’s language services. The plan
       is to be completed in the summer of 2006, and the Ofﬁce of Civil Rights will track
       its implementation.

          Recommendation 12: The International Broadcasting Bureau should complete
          and implement a recruitment plan that reaches out to qualiﬁed women and mi­
          norities in the engineering ﬁeld. (Action: IBB)



       Training and Awards

           The BBG FY 2007 budget request contains a performance objective to “main­
       tain and retain a skilled workforce with training and awards.” Training and awards
       are also part of the IBB human capital strategy. However, the effects of budget cuts
       have been felt sharply in these areas, and it remains to be seen how this objective can
       be achieved.

           OIG found widespread concern and dissatisfaction among IBB/E employees
       regarding the lack of training and professional development opportunities. A good
       training and development program enables employees to maintain technical skills,



40 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED




acquire skills required by the newest technologies, and it bolsters morale. A robust
training program, including long-term training, is an important component of any
strategy to recruit and retain new employees.

    Budget constraints have taken a toll on the BBG/IBB training budget. For
FY 2006, the IBB training budget was reduced by 50 percent, from approximately
$700,000 to $350,000. According to the IBB’s HR chief, the agency’s highest priority
for training focuses on employees in the broadcast ﬁeld. The FY 2006 IBB/E train­
ing budget was $21,000, with the majority of funds intended for training IT direc­
torate staff. For FY 2007, BBG is seeking $470,000 for technical, broadcasting, and
professional training (which includes engineering). The request includes a proposal
to increase funds for employee training in the areas of multi-media broadcasting and
technical and management training.

     The IBB/E director agreed that training in job knowledge and in supervisory
skills has suffered from years of under-funding. Nonetheless, the IBB HR chief
and IBB/E managers said severe budget cuts have not prevented the training that is
required to achieve or maintain technical certiﬁcations, and there are few denials of
training requests. However, some employees said they are not encouraged to request
training or choose not to submit requests because they believe the requests would
be denied. Furthermore, attendance at professional association conferences, which
helps employees stay current with the latest advancements and issues in their ﬁelds,
has been reduced. IBB employees may take courses at the Department’s Foreign
Service Institute, but must pay the tuition applicable to employees of outside agen­
cies.

   Recommendation 13: The International Broadcasting Bureau should conduct
   an employee training needs assessment, develop Individual Development Plans
   for all employees, prioritize training needs, and work with its human resources
   ofﬁce to explore all training opportunities, including in-house training and e-
   learning. (Action: IBB)


     Supervisory, management, and leadership training. In interviews and on OIG’s
questionnaires, numerous IBB/E employees cited instances where managers’ inter­
personal skills did not match their technical skills and abilities. This lack of people
skills and the resulting poor communications between managers and staff negatively
affects morale for IBB/E’s otherwise dedicated employees.

    Employees said in interviews that the quality and performance of their leader­
ship and management is a concern throughout IBB for broadcasters as well as tech-



OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   41 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED




       nical staff. BBG HR ofﬁcials said they want to strengthen leadership training.
       IBB/E supervisors now have management and supervision listed as a critical job
       element in their job-performance standards, and each supervisor is required to take
       at least one course in supervision. However, IBB/E ofﬁcials acknowledged that re­
       fresher training is needed. According to the Foreign Service Institute, BBG employ­
       ees may enroll in any of the 60 courses at the institute’s Leadership and Management
       School.

           Skills are lacking in employee relations, managing conﬂict, team building, mentor­
       ing, and communication. IBB/E ofﬁcials should ensure that management skills are
       taken into account in the recruitment and promotion process, that ratings honestly
       and straightforwardly address this element, and that individual development plans
       reﬂect the need for management training where appropriate. For example, top man­
       agement could ensure that 360-degree reviews are performed for all managers before
       any are selected for promotions. Most of all, top management should show that it
       values the high performance by managers, when working as managers, and not just
       when they are working as technical experts. OIG counseled IBB/E on this point.

           Awards. Awards are a part of the BBG strategy for recruiting and retaining
       a skilled and diverse workforce. Awards can be a powerful tool to reinforce mes­
       sages about strategic goals, values, and performance levels that leadership wants to
       see throughout an organization. Awards also are morale-boosters; especially when
       employees are concerned about budget cuts, station closings, and RIFs. However,
       as with other aspects of BBG/IBB’s HR-related funding, budget constraints have
       diminished the traditional awards program.

           For FY 2005 BBG had $450,000 for its awards program, and these funds were
       allocated to each component of BBG. There was an IBB-wide awards program and
       an IBB/E awards program. The programs included monetary awards and quality
       step increases. For FY 2006, however, the agency-wide awards budget was slashed to
       $100,000, and its awards program was eliminated. IBB/E received an awards budget
       of $11,930 in FY 2006 and was allotted seven quality step pay increases. Monetary
       awards ranged from $200 to $300. For FY 2007, IBB is seeking $250,000 for awards
       for its organization of 1,800 employees, who may also receive time-off awards and
       certiﬁcates of appreciation.

           Faced with insufﬁcient funds for cash awards, IBB/E senior managers need to
       consider alternative means of recognizing exceptional performance. OIG informally
       recommended some alternatives. For some highly skilled engineers, recognition
       among their peers (by means of an “employee of the month” parking space at the
       front door or a press release to engineering publications) may be more satisfying than
       a small amount of taxable cash. Others may welcome an opportunity to represent

42 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED




BBG at a national professional conference or receiving a letter of commendation
from a senior U.S. ofﬁcial or being asked to brief congressional staffers about a
recent accomplishment. It is important, however, that any awards program - formal
or informal - appear to the employees to be fair, commensurate, and appropriate; in
other words, everyone must believe that awards recognize signiﬁcant, relevant, and
genuine accomplishment.

Contract Management

     The Engineering Technical (E/T) directorate competently manages approxi­
mately 34 contracts totaling about $30 million, and a large number of its professional
employees monitor contractors’ performance. Engineers in both of its two divisions
act as project managers and authorized representatives of the contracting ofﬁcer
(ARCO). Overall, OIG found that the directorate adheres to applicable policies and
procedures in the post-award administration of contracts. The directorate communi­
cates effectively and works collegially with IBB’s Ofﬁce of Contracts, and its ARCOs
satisfactorily accomplish performance monitoring, contract modiﬁcation, negotia­
tion, liaison, subcontract award recommendations, property administration, inspec­
tion and acceptance of deliverables, and contract closeouts. Moreover, they operate
within the scope of their responsibilities. Although well versed in their duties and
responsibilities, the ARCOs do not meet IBB standards for periodic training.

    E/T’s procurement activity varies from simple equipment purchases for afﬁli­
ates to major construction acquisitions. Duties can be simple and brief or complex
and time-consuming, depending on the type of contract, contractor performance,
and nature of the work. The directorate uses practical ARCO operating guides that
provide relevant strategies for monitoring contractor performance. Much of the
contract work monitored by the directorate is performed overseas, and Washington-
based ARCO oversight is often limited. However, the Washington-based ARCOs
coordinate closely with ARCOs in the ﬁeld to ensure satisfactory results for overseas
projects. IBB stakeholders outside Washington believe the directorate’s engineers
are effective and appreciate their contributions. Directorate management is actively
evaluating contract management processes and intends to enhance its operations
with new policies and procedures.




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   43 .


                                         UNCLASSIFIED
                                        UNCLASSIFIED



       Training Policies and Procedures for
       Authorized Representatives of the Contracting
       Ofﬁcer


           The training policies and procedures for E/T ARCOs are inadequate. The
       directorate has 22 engineers serving as ARCOs to monitor contractor performance.
       OIG Report AUD/PPA-03-21, Review of Monitoring of Contractor Performance at the
       BBG (March 2003), found that BBG regulations did not specify any minimum train­
       ing requirements for personnel such as IBB/E’s ARCOs. Based on prudent business
       practice, OIG recommends incorporating ARCO training requirements into the IBB
       Manual of Operations and Administration.

           Although it did not issue the regulations in the format prescribed by OIG, IBB
       nevertheless established ARCO training requirements and posted them on the HR
       section of its intranet web site. But intranet posting is insufﬁcient to communicate
       an important training standard. On the intranet site, IBB has grouped the ARCO
       requirements with other procurement-cycle training requirements, and the ARCO
       training requirement may therefore be obscured. The posting’s terminology is also
       inconsistent with the agency’s terminology. For example, those charged with con­
       tract monitoring in IBB are referred to as “ARCOs” within the agency, but their
       training is identiﬁed as that for “contracting ofﬁcer representative” by the intranet
       posting. Furthermore, the posting lists the requirement of total course hours for
       refresher training as 16, but the true requirement is seen by many throughout IBB as
       only eight.

           Thus, the Ofﬁce of Contracts did not properly implement the 2003 OIG recom­
       mendation, which envisioned a more visible administrative announcement that would
       have made the training requirements obvious and could have prevented E/T’s lapse
       in ARCO refresher training.

          Recommendation 14: The International Broadcasting Bureau should incor­
          porate into the International Broadcasting Bureau’s Manual of Operations and
          Administration the training requirements for the authorized representatives of
          the contracting ofﬁcer. (Action: IBB)



       Training Failures

             The Ofﬁce of Contracts has identiﬁed and tracked ARCO training, but has done
       little to make certain that ARCO training is consistent with IBB guidelines. IBB



44 .                 OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                        UNCLASSIFIED
                                         UNCLASSIFIED




requires the following ARCO training: Contracting Ofﬁcer’s Representative (COR)
Course (40 hours), COR Refresher (16 hours every two years), Cost Estimating (24
hours every ﬁve years), Ethics (eight hours), and IT Acquisitions (24 hours). Im­
mediately after the 2003 report, IBB/E provided almost all ARCOs substantial initial
training. Since then, however, E/T has failed to ensure necessary and required fol­
low-up training. At the time of this inspection, 20 of the 22 ARCOs lacked required
follow-up ARCO training (the COR Refresher course). Also, ﬁve ARCOs did not
have cost-estimating training, and three had not had ethics training.

     The directorate has not implemented a control technique to ensure that ARCOs
receive refresher training in contract monitoring as required by IBB. The failure of
the professional staff to engage in continuing education increases the risk that con­
tract goals (quality, timeliness, completeness, cost, and adherence to agency mission)
will not be met.

   Recommendation 15: The International Broadcasting Bureau should imple­
   ment the mandated refresher training for authorized representatives of the
   contracting ofﬁcer and establish control procedures to monitor and ensure
   compliance with International Broadcasting Bureau training requirements.
   (Action: IBB)




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   45 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





46 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





                            MANAGEMENT CONTROLS


    The IBB Ofﬁce of Administration, a component of the IBB Ofﬁce of Manage­
ment, is director by the BBG management controls ofﬁcer and prepares the annual
IBB management controls assurance statement, as required by the Federal Managers’
Financial Integrity Act of 1982 as amended (P.L. 97-255). IBB/E has adequate con­
trols in place, and no weaknesses were identiﬁed during its annual review. In 2005,
IBB/E staff received training on the management controls process.

    Property management: In addition to maintaining the domestic inventory of its
non-expendable and capital property, IBB/E maintains the inventory for overseas
property at the transmitting stations. Station managers are responsible for conduct­
ing and reporting their inventory, which IBB/E reconciles and then reports to the
IBB’s Ofﬁce of Administration, which forwards it to the CFO. The IBB/E’s over­
seas property management system works well. The Ofﬁce of Management plans to
adapt the system to serve as a consolidated automated system for use throughout
IBB for all property, domestic and overseas. IBB/E is also working on inventory
procedures to account for cell phones.

    Travel/Time and Attendance: For FY 2005, IBB/E’s travel budget was $535,000.
Controls over the travel process (authorizations, vouchers, unused airline tickets, and
premium travel) are in place. At the time of the inspection, IBB was converting to
an electronic travel system. The controls over time and attendance, including con­
trols over alternative work schedules and teleworking, are adequate.

    Financial management: IBB/E controls its small amount of petty cash and its ap­
proximately $8,000 in representation funds, which are used worldwide. Due to the
small budget for representation funds, some requests were not funded. At the time
of the inspection, OIG was completing a review of the BBG domestic purchase card
program. IBB/E had identiﬁed no problems with it, and the Ofﬁce of Administra­
tion was planning to issue a new IBB administrative notice on the purchase card pro­
gram. IBB/E periodically reviews the status of unliquidated obligations. The CFO’s
ofﬁce tracks unliquidated obligations and oversees the annual process to certify the
obligations as valid.




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   47 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





48 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





                         FORMAL RECOMMENDATIONS


Recommendation 1: The International Broadcasting Bureau’s Ofﬁce of Engineering
  and Technical Services should develop and implement a written plan of actions to
  emphasize the internal and external communication of ideas, goals, and current
  tasks. (Action: IBB/E)

Recommendation 2: The Broadcasting Board of Governors should review the bal­
  ance of effort and resources it allocates to radio, television, and the Internet and
  develop an action plan that will assure that all of its broadcasters are taking the
  best possible advantage of these technologies. (Action: BBG)

Recommendation 3: The International Broadcasting Bureau’s Ofﬁce of Engineering
  and Technical Services should develop a list of steps it will take to identify new
  technologies, discover and test potential solutions, innovate, and overcome cur­
  rent limits on its ability to deliver signals to audiences. (Action: IBB/E)

Recommendation 4: The International Broadcasting Bureau’s Network Control
  Center should develop and implement written procedures for its operations in
  unusual and emerging situations. (Action: IBB/E)

Recommendation 5: The International Broadcasting Bureau’s Ofﬁce of Engineer­
  ing and Technical Services should arrange for a qualiﬁed individual or team of
  occupational safety and health inspectors to conduct an inspection of their Wash­
  ington, DC, ofﬁces to identify unsafe or unhealthy working conditions. (Action:
  IBB/E)

Recommendation 6: The International Broadcasting Bureau’s Ofﬁce of Engineer­
  ing and Technical Services should correct all conditions identiﬁed in the forego­
  ing occupational safety and health inspection. (Action: IBB/E)

Recommendation 7: The International Broadcasting Bureau’s Ofﬁce of Engineer­
  ing and Technical Services should develop an annual strategic plan for the Infor­
  mation Technology directorate that is aligned with the Broadcasting Board of
  Governor’s strategic plan and Broadcasting Board of Governor’s/Engineering
  Performance Plan and which includes speciﬁc, measurable steps toward agreed-
  upon goals that can be discussed, funded, and periodically reviewed by managers.
  (Action: IBB/E)



OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   49 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED





       Recommendation 8: The International Broadcasting Bureau’s Ofﬁce of Engineer­
         ing and Technical Services should direct its Information Technology directorate
         to develop and implement written standard operating procedures for its informa­
         tion technology processes. (Action: IBB/E)

       Recommendation 9: The Broadcasting Board of Governors should review the cur­
         rent process for determining whether a vacant position should be ﬁlled (waivers
         and exceptions to the hiring freeze), identify possible improvements to expedite
         the process, and make the necessary changes to implement the improvements.
         (Action: BBG)

       Recommendation 10: The Broadcasting Board of Governors within six months
         should conduct an organizational structure review of the Ofﬁce of Engineering
         and Technical Services, including a position management review, to determine
         which positions are needed to accomplish the ofﬁce’s goals within projected re­
         source levels. (Action: BBG)

       Recommendation 11: The Broadcasting Board of Governors should develop and
         implement a new procedure to keep stafﬁng plans up to date and use the new
         procedure to determine future changes in the workforce as they become neces­
         sary. (Action: BBG)

       Recommendation 12: The International Broadcasting Bureau should complete and
         implement a recruitment plan that reaches out to qualiﬁed women and minorities
         in the engineering ﬁeld. (Action: IBB)

       Recommendation 13: The International Broadcasting Bureau should conduct an
         employee training needs assessment, develop Individual Development Plans for
         all employees, prioritize training needs, and work with its human resources ofﬁce
         to explore all training opportunities, including in-house training and e-learning.
         (Action: IBB)

       Recommendation 14: The International Broadcasting Bureau should incorporate
         into the International Broadcasting Bureau’s Manual of Operations and Admin­
         istration the training requirements for the authorized representatives of the con­
         tracting ofﬁcer. (Action: IBB)

       Recommendation 15: The International Broadcasting Bureau should implement
         the mandated refresher training for authorized representatives of the contracting
         ofﬁcer and establish control procedures to monitor and ensure compliance with
         International Broadcasting Bureau training requirements. (Action: IBB)


50 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED





                       INFORMAL RECOMMENDATIONS


Informal recommendations cover matters not requiring action by organizations out­
side of the inspected unit and/or the parent regional bureau and are not be subject
to the OIG compliance process. However, any subsequent OIG inspection or onsite
compliance review will assess progress in implementing the informal recommenda­
tions.

Planning: a team sport -- A number of employees said they are uncertain about IBB/
E’s core mission, its mid- to long-term goals, and what is coming next. Few could
recall having seen IBB/E planning documents.

Informal Recommendation 1: The International Broadcasting Bureau should direct
the Ofﬁce of Engineering and Technical Services to make a greater effort to involve
staff members in planning and that as many employees as are willing are involved
in conceptualizing, writing, and assessing the progress of its performance plan each
year.

Prizing Good Management - IBB/E’s staff is intelligent, skilled, and mostly well mo­
tivated and includes many who need little more than clear goals and some occasional
feedback. Yet, too many employees get little information, poor communication, and
little chance to contribute.

Informal Recommendation 2: The International Broadcasting Bureau should direct
the Ofﬁce of Engineering and Technical Services to make efforts to develop a cor­
porate culture that informs employees, seeks their input, rewards exceptional perfor­
mance, corrects errors, and empowers the workforce. Supervisors should be given
training and incentives to improve their management of people.

In-house Research and Development -- E/T does not have an in-house research and
development unit. Technology, however, is rapidly changing, and the ways in which
current and potential audiences receive news and information is also rapidly evolving.
IBB/E has lost about 50 percent of its positions since the 1980’s, and it appears not
to be realistic to establish a research and development group or organize committees
to implement projects. E/T could nevertheless perform some research and develop­
ment. Options include allowing a staff members with a promising idea to devote
work time to development and for E/T to partner with a university on research and
development projects.

OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   51 .


                                         UNCLASSIFIED
                                     UNCLASSIFIED





       Informal Recommendation 3: The International Broadcasting Bureau’s Ofﬁce of
       Engineering and Technical Services should develop and implement plans for targeted
       small-scale research and development activities.

       Unleashing Creativity - IBB/E’s engineers said they are too often, when assigned a
       project, given the project’s solution, and advised to develop a means of implement­
       ing the solution. This approach does not consider the professional knowledge and
       experience of these employees, who say that deﬁning an objective and allowing them
       to propose potential solutions could provide better results.

       Informal Recommendation 4: The International Broadcasting Bureau should
       reexamine its practice of assigning professional employees to projects having pre­
       determined solutions and instead begin assigning them projects that are deﬁned by
       their objectives, while refraining from requiring particular solutions unless they are
       imperative.

       Enforcing Manual of Operations and Administration -- Project management within
       the IT directorate does not comply with IBB policy. IBB policies regarding project
       management are not being followed, despite the requirements of the IBB Manual
       of Operations and Administration, Section 1109. Clearly, the organizational culture
       has not placed much emphasis on documenting work processes and on enforcing
       adherence to written procedures. As a result, some projects, especially software ap­
       plications development, have been allowed to miss deadlines or have been dropped
       entirely, even after months of development.

       Informal Recommendation 5: The International Broadcasting Bureau should en­
       force the Manual of Operations and Administration policy regarding all information
       technology projects and their project management.

       Awards -- Awards can reinforce messages about strategic goals as well as the values
       and performance levels that the leadership wants to see in the organization. Howev­
       er, as with other aspects of BBG/IBB’s HR funding, budget constraints have dimin­
       ished the awards program.

       Informal Recommendation 6: Given the lack of funds for awards, managers in the
       Ofﬁce of Engineering and Technical Services should develop alternative means of
       recognizing exceptional performance by offering awards in forms other than cash.

       Compliance with Hardware Procurement Policy -- IBB/E is procuring computer hard­
       ware without complying with IBB policy. OIG found various examples of new tech­
       nology purchased without coordination with the IT directorate. The ofﬁces doing

52 .              OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                                     UNCLASSIFIED
                                         UNCLASSIFIED





so have subsequently expected the directorate to support these technologies, thereby
further straining the Directorate’s resources.

Informal Recommendation 7: The International Broadcasting Bureau should en­
force the Manual of Operations and Administration policy regarding procurement
of information technology equipment.

Monitoring -- Despite its growth in dependence on leased and owned FM transmit­
ters and on FM afﬁliates that carry BBG signals, IBB/E has not made a priority of
comprehensive veriﬁcation and monitoring. It veriﬁes that signals are delivered if
the signals originate from shortwave and mediumwave transmitters, and it monitors
TV broadcasts at the NCC. Industry experts say outages on FM radio and the Inter­
net seriously and immediately diminish a provider’s audience share.

Informal Recommendation 8: The International Broadcasting Bureau should seek
ways to ensure that all signal transmissions, including FM broadcasts and the Inter­
net, are fully monitored so that remediation is immediate when information is not
getting through.




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   53 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





54 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





                                PRINCIPAL OFFICIALS


                                                         Name                             Arrival Date
Director of the Ofﬁce of Engineering                     George Moore                            03/00
   (Until June 2006)
Director of the Ofﬁce of Engineering                     Vincent Nowicki,                       06/06
                                                         Acting
Chief Information Ofﬁcer                                 Curt Huyser                            03/06
Operations                                               Walter Borys, Acting                   06/06
Technical                                                Ronald Linz                            03/06
Resource                                                 Connie Stephens                        09/05
Technology                                               Kenneth Berman                         06/04




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006            55 .


                                         UNCLASSIFIED
                          UNCLASSIFIED





56 .   OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006


                          UNCLASSIFIED
                                         UNCLASSIFIED





                                     ABBREVIATIONS


ARCO                           Authorized representative of the contracting ofﬁcer
BBG                            Broadcasting Board of Governors
CIO                            Chief Information Ofﬁcer
CFO                            Chief Financial Ofﬁcer
COR                            Contracting ofﬁcer’s representative
EO                             Engineering Operations
E/T                            Engineering Technical Directorate
FM                             Frequency modulation
IBB                            International Broadcasting Bureau
IBB/E                          IBB Ofﬁce of Engineering and Technical Services
IT                             Information technology
NCC                            Network Control Center
OIG                            Ofﬁce of the Inspector General
RIF                            Reduction in force
SMS                            Short message service
SOP                            Standard operating procedures
TI                             Technology Innovations, Inc.
VOA                            Voice of America




OIG Report No. ISP-IB-07-03, IBB’s Ofﬁce of Engineering and Technical Services - October 2006   57 .


                                         UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
